                ,'
                              r-
                          C




                                             CLOSEOUT MEMORANDUM




         An allegation was received that the complainant's' university2 improperly reallocated NSF-
         awarded summer salary into academic year support. The complainant alleged that departmental
         practice required a 1:1 match between academic year support and summer salary before the
         department would approve disbursal of summer salary.

         We interviewed the relevant department head3 and the Dean of the college4 at the complainant's
         university. The department head encourages each faculty member to maintain a reasonable
         balance in using external funds for summer support versus academic year release time, graduate
         student support, but refutes the allegation of a required match. The Dean of the College
         emphasizes that faculty efforts on research, and allocations of salary support, are concordant with
         funds granted, and that all practices taken by the departments and the university are consistent
         with particular agency guidelines. The Dean denies that there is a required 1:1 match.

         Time and effort and expenditure reports for a sampling of grants were examined and compared to
         the corresponding NSF awards. These grants represent a cross section of active as well as closed
         grants, and grants funded within a number of different departments on the campus. Each and
         every time and effort reporting document was consistent with the distribution of funds recorded.
         Each and every distribution of funds was consistent with the salary funds requested and granted,
         and consistent with the 219 rule of NSF for summer salary support. As a final part of the inquiry,
         we spoke directly with accounting administrators at the university, who denied any policy as
         alleged by the complainant.

         In summary, no evidence that supports the complainant's allegation is found by direct interview,
         by detailed examination of the financial records for a selection of IVSF-funded grants on campus,



         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
